F EDERAL P UBLIC D EFENDER
D ISTRICT OF A RIZONA
850 West Adams Street, Suite 201
Phoenix, Arizona 85007

JON M. SANDS
Federal Public Defender

voice
facsimile
toll-free
email

(602) 382-2700
(602) 382-2800
(800) 758-7053
keith_hilzendeger@fd.org

September 28, 2021
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
RE:

Oklahoma v. Robert William Perry II, No. 21-320

Dear Mr. Harris—
I represent respondent in the above-referenced case. Petitioner Oklahoma filed a petition for a
writ of certiorari on August 27, 2021, and this case was placed on the docket on September 1, 2021.
Pursuant to Rule 30.4, I write to request a 30-day extension of time to file a response to the petition
in this case.
In light of the press of other business, counsel requires additional time to fully respond to the
arguments presented in the petition. Moreover, Oklahoma has filed a new petition that bears on the
petition in respondent’s case. In particular, Oklahoma’s petition relies on arguments that it made in
Oklahoma v. Bosse, No. 21-186, which has now been voluntarily dismissed. On September 17,
2021, Oklahoma filed a new petition in Oklahoma v. Castro-Huerta, No. 21-429, which modifies in
certain respects its arguments for why certiorari should be granted in that case and in respondent’s
case. Hence, respondent’s counsel requires time to review the arguments made in Castro-Huerta and
to respond as appropriate.
For these reasons, I respectfully ask for a 30-day extension of time, until October 31, 2021, to
respond to the petition in this matter.
Sincerely,
s/Keith J. Hilzendeger
Keith Hilzendeger
Assistant Federal Public Defender

